@QCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 20-641

LSP TRANSMISSION HOLDINGS, LLC, Petitioner,
v.
KATIE SIEBEN, DAN M. LIPSCHULTZ, MATTHEW SCHUERGER, JOHN TUMA,
VALERIE MEANS, STEVE KELLEY, ITC MIDWEST LLC, NORTHERN STATES
POWER COMPANY d/b/a XCEL ENERGY, Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 7930 words, excluding the parts that are exempted by Suprenie Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 25th day of January, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Choi,
i RENEE J. GOSS 9. ( de dre ss

‘My Comm. Exp. September 5, 2023
Notary Public

 

Affiant 40433
